No. 20-7751

 

IN THE SUPREME COURT OF THEUNITED STATES

 

EFRAIN LOPEZ, PETITIONER
Vs.
BOBBY LUMPKIN, TDC-J DIRECTORE, RESPONDENT

 

CERTIFICATE OF GOOD FAITH

 

Comes Now Petitioner, Efrain Lopez, Pro Se, and makes this certification
that his petition for rehearing is presented to this Court in good faith
pursuant to Rule:44, Petitioner Lopez further states the following:

This Court entered it's judgment denying Petitioner a Writ of Certiorari
on June 14, 2021. Petitioner received Notice of the denial on Jume 25, 2021
(See Mailroom Pass).

Petitioner Lopez believes that he presents this Court with adequate grounds
to justify the granting of rehearing in this case and said petition:is brought
in good faith and not for delay.

Furthermore, Petitioner believes that based upon the Law of this Court, Law
of Case Doctrine, Court rules, and facts of this case, Lopez is entitled to
relief which has been - prejudice- unjustly denied to him. Lopez further believes
that if the Fifth Circuit Court of Appeals final judgment is upheld, that said
judgment will cause depredation to the U.S. Constitution (6th,8th,&14th Amend.)
and a progeny case that will deny defendants their Bill of Rights.

I declare under penalty of perjury that the foregoing is true and correct,

Executed on this 24 day of June, 2021.

LEEK

Efrain Lopez, Petitioner, Pro Se
